RECORD''- - PRESS
Appellate Management Document Solutions
229 West 361h Street, 81h Fl., New York, N.Y. 10018 • 212-619-4949 • www.recordpress.com

183260]
STATE OF NEW YORK
COUNTY OF NEW YORK

)
) SS:

AFFIDAVIT OF SERVICE

Giovanni Feliciano, being duly sworn, deposes and says that deponent is not party to the action, and is over 18
years of age.
That on the 7th day of July 2020 deponent served 3 copies of the within

BRIEF OF AMICI CURIAE KYRATSO KARAHALIOS, ALAN MISLOVE,
CHRISTIAN W. SANDVIG, CHRISTOPHER WILSON, FIRST LOOK MEDIA WORKS,
THE AMERICAN CIVIL LIBERTIES UNION, THE AMERICAN CIVIL LIBERTIES UNION OF
THE DISTRICT OF COLUMBIA, THE AMERICAN CIVIL LIBERTIES UNION OF
GEORGIA, UPTURN, AND THE KNIGHT FIRST AMENDMENT INSTITUTE
IN SUPPORT OF PETITIONER
upon the attorneys at the addresses below, and by the following method:
Contact
Noel J. Francisco

Jeffrey L. Fisher

F.lrm

Address+ Email Address

Solicitor General of the United States
United States Department of Justice

950 Pennsylvania Avenue, N.W.,
Room 5614
Washington, D.C. 20530
(202) 514-2217

Auorneysfor Responde11I

SupremeCtBriefs@USDOJ.gov

Stanford Law School Supreme Court Litigation
Clinic

559 Nathan Abbott Way
Stanford, California 94305

Allorneys for Pe1i1io11er

jlfisher@law.stanford.edu

(650) 724-7081

Sworn to me this:
July 7, 2020
Nadia R, Oswald-Hamid
Notary Public, State of New York
No. 0IOS6IOl366
Qualified in Kings
Commission Expires November I 0, 2023

Delivery Method
FedEx Next Business
Day

FedEx Next Business
Day

